o.

■ 1

i

i

J

J—I

_

•1

p
I

. J

No. 19-

1 C

In the

Supreme Court of ttje Butted States
MICHAEL MCCARRON,
Petitioner,
v.
DECARLO & SHANLEY, P.C,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Michael McCarron
22510 Needles Street
Chatsworth, California 91311
(818) 540-8801
Petitioner Pro se

295095

0

COUNSEL PRESS

<800)274-3321 • (800)359-6859

-J
-i HK

%

QUESTION PRESENTED
I. Does The Employee Retirement Income Security
Act of 1974 (“ERISA”) (29 U.S.C. §1144(a)), preempt state
law claims of a labor union official against a private law
firm based upon improper and potentially unlawful legal
advice which instructed the labor union official to take
actions designed to personally harm the labor union officer
to the benefit the law firm that provided such advice?

II

PARTIES TO THE PROCEEDINGS
Michael McCarron, Petitioner.
DeCarlo & Shanley, P.C., Respondent.
The Southwest Regional Council of Carpenters,
Respondent to the Appeal.

ui

CORPORATE DISCLOSURE STATEMENT
Petitioner Michael McCarron does not believe DeCarlo
& Shanley, P.C. a law firm has a parent or subsidiary
corporation and that no publicly held company has any
ownership interest therein.
Petitioner Michael McCarron does not believe The
Southwest Regional Council of Carpenters, a labor union
which is not part of this Petition, but was a party to the
appellate proceedings below, has a parent or subsidiary
corporation and that no publicly held company has any
ownership interest therein.

IV

RELATED CASES
Southwest Regional Council of Carpenters v. Michael
McCarron, United States District Court, Central District
of California, Case Number 2:14-cv-02762-JVS-JC,
amended final judgment entered January 4,2019.
Southwest Regional Council ofCarpenters v. Michael
McCarron , United States Court of Appeals for the
Ninth Circuit, Case Number 19-55154, judgment entered
November 25, 2019.
Southwest Regional Council of Carpenters v. Michael
McCarron, United States Court of Appeals for the Ninth
Circuit, Case Number 15-55879, final amended judgment
entered April 23, 2018.

V

TABLE OF CONTENTS
Page
QUESTION PRESENTED

i

PARTIES TO THE PROCEEDINGS

ii

CORPORATE DISCLOSURE STATEMENT

iii

RELATED CASES

IV

TABLE OF CONTENTS

,v

TABLE OF APPENDICES

vi

TABLE OF CITED AUTHORITIES

vii

OPINION BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE PETITION

5

CONCLUSION

6

VI

TABLE OF APPENDICES
Page
APPENDIX A — MEMORANDUM OF
THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT,
DATED NOVEMBER 27,2019.......................

la

APPENDIX B — AMENDED JUDGMENT
OF THE UNITED STATES DISTRICT
COURT FOR THE CENTRAL DISTRICT OF
CALIFORNIA, DATED JANUARY 4,2019..

,4a

APPENDIX C — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA,
DATED NOVEMBER 19,2018.......................

7a

APPENDIX D — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT,
DATED DECEMBER 16,2018.......................

,20a

Vll

TABLE OF CITED AUTHORITIES
Page
FEDERAL CASES
Dialysis Newco, Inc. v. Cmty. Health Sys. Grp.
Health Plan,
2019 U.S. App. LEXIS 27418
(5th Cir. September 11,2019).......................

5

Rudel v. Hawaii Management Alliance
Association,
2019 U.S. App, LEXIS 27371 (9th Cir. 2019)

5

STATUTES
28 U.S.C. § 1254(1)

1

29 U.S.C. § 501(a)

4

29 U.S.C. § 1003(a)

2

29 U.S.C. § 1003(b)

2

29 U.S.C. § 1144(a)

1

29 U.S.C. § 1144(b)

2

Fed. R. Civ. P. § 12(b)(6)

4

Fed. R. Civ. P. § 14(a)

1

1
OPINION BELOW
The unpublished memorandum opinion of the United
States Court of Appeals for the Ninth Circuit is included
herein as Appendix A (page la). The Amended Order
of the United States District Court, Central District of
California is included herein as Appendix B (page 4a).
The Order of the United States District Court, Central
District of California is included herein as Appendix C
(page 7a). The Denial of Rehearing of the United States
Court of Appeals for the Ninth Circuit is included herein
as Appendix D (page 20a).
JURISDICTION
This Court has jurisdiction of this petition to review
the judgment of the United States Court of Appeal for the
Ninth Circuit pursuant to 28 U.S.C. § 1254(1). The Ninth
Circuit’s memorandum opinion was filed on November 27,
2019 and Petitioner’s Petition for Rehearing was denied
on December 16, 2019
The district court had subject matter jurisdiction of
McCarron’s claims pursuant to Federal Rules of Civil
Procedure § 14(a), which claims were dependent in some
way on the claims of the Southwest Regional Council of
Carpenters (“SWRCC”) against McCarron in SWRCC’s
original complaint.
STATUTORY PROVISIONS INVOLVED
The Employee Retirement Income Security Act of
1974 (29 U.S.C. §1144(a)):

2

Except as provided in subsection (b) of this
section, the provisions of this subchapter and
subchapter III shall supersede any and all
State laws insofar as they may now or hereafter
relate to any employee benefit plan described
in section 1003(a) of this title and not exempt
under section 1003(b) of this title. This section
shall take effect on January 1,1975.
STATEMENT OF THE CASE
SWRCC is a labor union organized with the United
Brotherhood of Carpenters and Joiners of America
(“UBC”). The Southwest Training Fund (“SWTF”)
is a multi-employer benefit plan that provides an
apprenticeship program for union carpenters. McCarron
served as the Executive Secretary-Treasurer of SWRCC
from August 1999 to August 2013. McCarron was the
SWRCC’s chief executive officer and responsible for its day
to day business. It should also be noted that McCarron’s
brother, Douglas McCarron (“Douglas”) was and still is
the general president of the UBC as well as a Trustee of
the SWTF; Chairman of the Southwest Carpenters Trust
Funds, and a political rival of Petitioner.
Initially, the SWRCC filed a complaint against
Petitioner Michael McCarron (“Petitioner” or “McCarron”),
a union official based upon claims that McCarron issued
refunds on lease payments from SWRCC to the Southwest
Carpenter’s Training Fund (“SWTF”) which were above
market rate, due to the 2008 real estate market collapse.
McCarron also counterclaimed against SWRCC,
Respondent the law firm of Decarlo & Shanley, P.C.
(“D&S” or “Respondent”), and other parties not relevant

3

to this petition. McCarron’s claims against D&S were for
indemnity and contribution, as well as state law claims for
negligence, breach of fiduciary duty, breach of contract,
fraud and conspiracy.
As alleged in McCarron’s third party complaint,
SWRCC leased properties to SWTF for use as training
facilities. D&S knew Petitioner was preparing to meet
with other law firms to replace D&S as counsel for
SWRCC and the SWTF. It was also rumored of the
possibility that Petitioner would run against his brother,
Douglas, for president of the UBC. These facts lead D&S
and Douglas to conspire to remove Petitioner from the
Union. The conspiratorial scheme was to misrepresent
the SWTF lease overpayment billings to the SWRCC,
by claiming Petitioner reverse engineered the SWTF
leases, creating the lease overcharges, to bolster the
SWRCC treasury, meaning the SWTF claimed SWRCC
illegally overcharged SWTF for leases. On May 31,
2013, SWTF billed SWRCC $4,736,970.52 (including
compound interest) for alleged rent overcharges on the
leased premises. On June 21,2013 SWTF billed SWRCC
a total of $627,999.59 (including compound interest) for
additional alleged rent overcharges. D&S attorney John
DeCarlo, counsel to the SWRCC instructed McCarron,
the Executive Secretary Treasurer of SWRCC to refund
the overcharged lease payments to SWTF because of an
upcoming Department of Labor (“DOL”) audit. Acting on
this advice (and, in fact, insistence) McCarron returned
the overcharged lease payments from SWRCC to SWTF,
following those procedures required of him.
Thereafter, in a star chamber proceeding, where
McCarron was not permitted to have an attorney

4
represent him, McCarron was removed from the SWRCC
and SWTF at a union disciplinary hearing, based
primarily, but not exclusively, on the refund of monies
from SWRCC to SWTF (again, properly done and done
at the insistence of D&S). Thereafter, in April of 2014,
SWRCC sued McCarron alleging violation of the LMRDA
(29 U.S.C. § 501 (a)), claiming that SWRCC was injured
by McCarron’s reimbursement of overcharged lease
payments as between SWRCC and SWTF. Of particular
note is that this lawsuit was filed on behalf of SWRCC
by D&S, the very law firm that told McCarron to refund
the overcharged lease payments in the first instance.
That is, D&S filed a lawsuit on behalf of SWRCC against
McCarron for taking D&S’ own advice. McCarron was
ultimately vindicated by judgment on all claims brought
by SWRCC against him.
D&S, the very law firm responsible for providing
advice to McCarron was the same firm that turned around
and sued McCarron for taking their advice (if not actual
demands). McCarron’s actions saved SWRCC significant
sums of money, and his reward was termination and a
lawsuit seeking to financially ruin him.
On November 19, 2018, the District Court heard
and granted D&S’ motion to dismiss (FRCP § 12(b)(6)),
which was the last remaining matter in the action. Final
Judgment was rendered on January 4,2019. Thereafter,
McCarron filed an appeal to the Ninth Circuit which
ultimately affirmed the district court and McCarron’s
Petition for Rehearing was similarly denied.

5
REASONS FOR GRANTING THE PETITION
This Court should grant the petition and review the
judgment of the Ninth Circuit Court of Appeals because of
the significant split of authority nationwide as to the scope
and breadth of ERISA preemption. ERISA preemption
has been a quagmire that has vexed courts, attorneys
and litigants alike since its inception. This Court as well
as appellate and district courts have raised the issue
on numerous occasions, but, as of yet, no bright line test
has yet to be adopted. Appellate courts throughout the
country have split on the issue of ERISA preemption, as to
which claims are, and which claims are not preempted by
ERISA. This split is especially prevalent when, in cases
such as this one, touch an ERISA governed relationship,
but are common law claims which are not, in and of
themselves governed by ERISA.
Two recent cases illustrate the difficulty lower
courts currently have determining the scope of ERISA
preemption. In Rudel v. Hawaii Management Alliance
Association (9th Cir. 2019) 2019 U.S. App, LEXIS 27371,
the Ninth Circuit held that in a case involving the right of
a plan which paid medical benefits to seek reimbursement
of out of pocket expenses against a third party tortfeasor,
while the state law “related to” an ERISA plan, there
was no ERISA preemption, favoring state law regulating
insurance. Conversely, in Dialysis Newco, Inc. v. Cmty.
Health Sys. Grp. Health Plan (5th Cir. September 11,
2019) 2019 U.S. App. LEXIS 27418, the Fifth Circuit
found ERISA preemption holding that a third party claim
which could not be assigned was preempted because the
state statute “related to” the ERISA plan, but impacted a
“central matter of plan administration” which interfered

6

with “nationally uniform plan administration.” These
two recent cases are but a small, yet further example of
how courts continue to struggle to determine the scope
and breadth of ERISA preemption. This case provides
this Court an opportunity to create a bright line test as to
which state law claims are, and which are not preempted
by ERISA and provide finality to settle this issue.
CONCLUSION
For the above and foregoing reasons, Petitioner
requests the issuance of a writ of certiorari to the United
States Court of Appeals for the Ninth Circuit.
DATED: March 16, 2020

Respectfully submitted,
Michael McCarron
22510 Needles Street
Chatsworth, California 91311
(818) 540-8801
Petitioner Pro se

xidNaadv

